ORANGE COUNTY’S CREDIT UNION
IMPORTANT INFORMATION ABOUT YOUR MASTERCARD ® PLATINUM
REWARDS CREDIT CARD
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Annual Percentage Rate (APR) for
Balance Transfers
Annual Percentage Rate (APR) for
Cash Advances
How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection
Bureau
Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advances
• Foreign Transactions
Penalty Fees
• Late Payment
• Returned Payment

11.49% to 19.49% based on your
creditworthiness. The APR will vary with the
market based on Prime rate.
11.49% to 19.49% based on your
creditworthiness. The APR will vary with the
market based on the Prime Rate.
20.49%
This APR will vary with the market based on the
Prime Rate.
Your due date is 25 days after the close of each
billing cycle. We will not charge you any
interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when
applying for or using a credit card, visit the
website of the Consumer Financial Protection
Bureau at:
http://www.consumerfinance.gov/learnmore
None
2.00% of the amount of the Balance Transfer,
but not less than $5.00 nor greater than $50.00
per Balance Transfer.
2.00% of the amount of the Cash Advance, but
not less than $5.00 nor greater than $50.00 per
Cash Advance.
1.00% of each foreign transaction in U.S.
Dollars.
Up to $7 if the Minimum Payment Due is not
paid within 5 days of the Payment Due Date.
Up to $25.00.

How We Will Calculate Your Balance: We use a method called “Average Daily
Balance (Including Current Transactions).”
The information about the costs of the card described in this application is accurate as of
January 1, 2019. This information may have changed after that date. To find out what
may have changed, call us at (888) 354-6228.
Takeone 01-01-2019
1009 10 003

